<html>
<title> - GOVERNMENT ONLINE: STRATEGIES AND CHALLENGES</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




              GOVERNMENT ONLINE: STRATEGIES AND CHALLENGES

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 22, 2000

                               __________

                           Serial No. 106-208

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                              -----------

                   U.S. GOVERNMENT PRINTING OFFICE
71-535                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
JUDY BIGGERT, Illinois               JIM TURNER, Texas
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
GREG WALDEN, Oregon                  MAJOR R. OWENS, New York
DOUG OSE, California                 PATSY T. MINK, Hawaii
PAUL RYAN, Wisconsin                 CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                         Randy Kaplan, Counsel
                           Bryan Sisk, Clerk
           Trey Henderson, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 22, 2000.....................................     1
Statement of:
    McClure, David L., Associate Director, Governmentwide and 
      Defense Information Systems, General Accounting Office; 
      George R. Molaski, Chief Information Officer, Department of 
      Transportation; Donald W. Upson, Secretary of Technology, 
      Commonwealth of Virginia; Patricia McGinnis, president and 
      chief executive officer, Council for Excellence in 
      Government; David Gardiner, vice president, architecture 
      and technology, Unisys Corp.; Lee Cooper, vice president 
      business development, U.S. Federal Government Group; and 
      Kathleen deLaski, group director, editorial products, 
      America Online.............................................     3
Letters, statements, etc., submitted for the record by:
    deLaski, Kathleen, group director, editorial products, 
      America Online, prepared statement of......................    76
    Gardiner, David, vice president, architecture and technology, 
      Unisys Corp., prepared statement of........................    58
    McClure, David L., Associate Director, Governmentwide and 
      Defense Information Systems, General Accounting Office, 
      prepared statement of......................................     7
    McGinnis, Patricia, president and chief executive officer, 
      Council for Excellence in Government, prepared statement of    51
    Molaski, George R., Chief Information Officer, Department of 
      Transportation, prepared statement of......................    30
    Upson, Donald W., Secretary of Technology, Commonwealth of 
      Virginia, prepared statement of............................    41

 
              GOVERNMENT ONLINE: STRATEGIES AND CHALLENGES

                              ----------                              


                          MONDAY, MAY 22, 2000

                  House of Representatives,
Subcommittee on Government Management, Information, 
                                    and Technology,
                            Committee on Government Reform,
                                                       Herndon, VA.
    The subcommittee met, pursuant to notice, at 1 p.m., in the 
Auditorium, Center for Innovative Technology, Herndon, VA, Hon. 
Stephen Horn (chairman of the subcommittee) presiding.
    Present: Representatives Horn and Davis.
    Staff present: J. Russell George, staff director and chief 
counsel; Randy Kaplan, counsel; Bonnie Heald, director of 
communications; Bryan Sisk, clerk; Elizabeth Seong and Michael 
Soon, interns; Melissa Wojciak, professional staff member, 
Subcommittee on the District of Columbia; Barbara Tempel, 
community outreach director for Representative Davis; John 
Hicks, audio/visual technician, Center for Innovative 
Technology; Trey Henderson, minority counsel; and Jean Gosa, 
minority clerk.
    Mr. Horn. A quorum being present, the Subcommittee on 
Government Management, Information, and Technology will come to 
order.
    New and emerging information technology is revolutionizing 
the way citizens communicate with their Federal Government. The 
Government's gradual transformation to electronic government--
or e-government--already provides Internet users with access to 
more than 20,000 Federal Web sites. In addition to providing 
useful information, many agencies have begun offering 
interactive, on-line services.
    Today Internet users on-line can file their income tax 
return, buy coins from the U.S. Mint or reserve a campsite at a 
U.S. park. On-line procurement programs, such as the General 
Services Administration Advantage program, allow Federal 
agencies to buy supplies and equipment with the click of a 
mouse button. Other procurement programs provide information on 
government contracts. This improved service reduces both the 
time and cost of doing business with the Government.
    By the end of this year, nearly 40 million Americans will 
communicate with the Government electronically. And that demand 
will swell as even more people join the information age.
    Electronic government offers the potential to reinvent the 
way citizens and businesses alike interact with government. The 
benefits of this new form of government are plentiful, and the 
challenges profound.
    To be successful, government Web sites must be well 
organized and readily accessible, which is not necessarily true 
today.
    Citizens and businesses should expect government Web sites 
to offer the same quality and service found on many business 
Web sites. They must be confident that their on-line 
communications with the Government are secure and personal 
information is fully protected. Additionally, the large 
investment necessary to create the Government's electronic 
infrastructure must be carefully planned and managed to avoid 
risking the loss of billions of taxpayer dollars.
    We must bridge the digital divide so that citizens have 
access to this new electronic environment.
    With proper education and training the Federal work force 
can be up to the challenge. Currently, there is a nationwide 
shortage of skilled information technology workers. Over the 
next few years, a substantial number of Federal employees will 
retire. Others who are skilled in information technology will 
leave government service for more lucrative opportunities in 
the private sector. Where possible, the executive branch must 
find creative ways to retain and retrain this vitally important 
work force. If that fails, the new civil servants must gain the 
skills needed for the times in which we live.
    Today we will hear from a number of experts from both the 
public and private sector who will discuss this very important 
subject.
    I thank the gentleman from Virginia, Representative Tom 
Davis, who is a member of our subcommittee, and the Center for 
Innovative Technology for hosting today's hearing.
    We welcome our distinguished panel of witnesses and look 
forward to their testimony. And now I ask if the gentleman from 
Virginia, Mr. Davis has an opening statement he would like to 
make.
    Mr. Davis. Good afternoon, Mr. Chairman, and thank you for 
holding this important statement. I ask that my complete 
statement be put in the record.
    Mr. Horn. Without objection.
    Mr. Davis. I want to welcome all the panelists for being 
here both from the private sector and government sector and say 
that I have to leave early, so I will keep my remarks brief and 
let you proceed.
    Mr. Horn. Thank you. We will now start with the 
presentations, and let me say we will go down the witness list 
in the order you see, and we will swear in the panel, which is 
what we do in the Committee on Government Reform, and we also--
the minute we introduce you your complete document is 
automatically put in the record. We would like you to summarize 
within 5 minutes if you can. If you run over we won't be rigid 
about it, but we would like a summary and this focuses your 
testimony. We have had a chance to read many of the 
testimonies, but not all of them, and some people are missing 
today. So if you would stand ready to affirm and swear and take 
the oath.
    [Witnesses sworn.]
    Mr. Horn. We will start with David L. McClure, Associate 
Director, Governmentwide and Defense Information Systems, of 
the legislative branch's General Accounting Office. They are 
usually good witnesses to begin with. They do superb work 
around the country in the executive branch. Please proceed.

      STATEMENTS OF DAVID L. McCLURE, ASSOCIATE DIRECTOR, 
    GOVERNMENTWIDE AND DEFENSE INFORMATION SYSTEMS, GENERAL 
    ACCOUNTING OFFICE; GEORGE R. MOLASKI, CHIEF INFORMATION 
    OFFICER, DEPARTMENT OF TRANSPORTATION; DONALD W. UPSON, 
  SECRETARY OF TECHNOLOGY, COMMONWEALTH OF VIRGINIA; PATRICIA 
 McGINNIS, PRESIDENT AND CHIEF EXECUTIVE OFFICER, COUNCIL FOR 
   EXCELLENCE IN GOVERNMENT; DAVID GARDINER, VICE PRESIDENT, 
  ARCHITECTURE AND TECHNOLOGY, UNISYS CORP.; LEE COOPER, VICE 
PRESIDENT BUSINESS DEVELOPMENT, U.S. FEDERAL GOVERNMENT GROUP; 
   AND KATHLEEN deLASKI, GROUP DIRECTOR, EDITORIAL PRODUCTS, 
                         AMERICA ONLINE

    Mr. McClure. Good afternoon, Mr. Chairman and members of 
the subcommittee. I appreciate the opportunity to be here today 
with the panel of experts in e-business and e-government that 
you and your staff have assembled.
    As you know, e-commerce, e-business and now e-government 
are topics of growing interest in the Congress. GAO is 
conducting numerous reviews involving on-line or Internet-
related information issues, such as Web site privacy policies, 
State taxation of Internet sales, Smartcard and purchase card 
use and Internet access competition.
    The Internet offers unique opportunities for government 
agencies to improve internal operations and provide on-line 
public access to information and services. But, as the recent 
rash of computer viruses have served to illustrate, this 
increased open interconnectivity and convenience comes with 
risks that must be mitigated, notably security and privacy.
    In my remarks today I will focus on three points: One, the 
drivers behind electronic government; two, the opportunities 
opening up with the Government agency use of the Internet; and, 
third, five specific challenges that are confronting e-
government that deserve increased attention.
    First, let me touch on some of the critical drivers behind 
e-government.
    The Federal Government's movement toward greater use of on-
line service delivery and citizen and business access is being 
pushed by market forces in private industry. There are also 
great expectations for electronic government that comes from a 
diverse statutory and policy framework such as statutes 
authorizing agency programs and general management status that 
explicitly call for electronic or on-line access. In addition, 
the executive branch has issued numerous policies that began as 
early as 1993 with the NPR.
    All of these actions are prompted in large part by a need 
for the Government to tangibly demonstrate an ability to 
improve its services and access to citizens and a recognition 
that Web-based technologies can provide a friendly citizen 
interface over sometimes confusing and suboptimized government 
structures, responsibilities and processes.
    That brings me to my second major point. The Government's 
use of the Internet is evolving. For the most part, there seems 
to be a consensus that governments are in the early stages of 
shifting to citizen-centered services via the Internet. 
However, it is being accelerated by quick advances in Web-based 
technologies, improved software applications, and a phenomenal 
growth in Internet access and usage. In the interest of 
simplicity and time, let me just point out some examples in 
three areas that are common across all levels of government. 
The first area is interactive communication and information 
dissemination such as Access America for Seniors, an entry 
portal for seniors to reach diverse government information on 
benefits, taxes, health and nutrition and consumer protection.
    Second, are transactions and applications such as IRS' 
electronic tax administration program, which makes use of the 
Web to allow citizens to file taxes via the Internet.
    Third are on-line procurement activities such as GSA's 
Electronic Posting System, a pilot program that allows vendors 
to search for contracting opportunities over $25,000, including 
solicitations and awards, as well as GSA Advantage, which 
allows agencies to search for products and services and place 
orders from GSA's Federal supply schedule contractors.
    Now let me turn to the five challenges that really confront 
us in making the transition to full electronic service 
delivery. These are not insurmountable areas but they deserve 
attention.
    The first is adequate executive management leadership and 
involvement. Given our many hearings with you, Mr. Chairman, I 
feel like I am preaching to the choir on this issue. Our best 
practices studies at GAO confirm that top management 
leadership, involvement, ownership, and vision are the 
cornerstone of any information technology initiatives. 
Delegating everything to technologists can be dangerous. In our 
rush to electronic service delivery, it is important to 
remember fundamental principles and practices of good IT 
planning and management--they equally apply to effective 
customer-centric Web-based applications. For example, using 
such things as measurable performance improvement expectations, 
risk identification and mitigation strategies, and using 
industry standard technology and solutions where appropriate.
    Perhaps the most pressing leadership challenge is how to 
best use the Internet to deliver services to citizens and 
business partners. The administration, through the efforts of 
agencies, NPRG, the National Partnership for Reinventing 
Government, and the Council of Excellence in Government is 
focused on efforts to help bridge this gap. At present we are 
confronted with realities of disparities in Internet access 
across citizen groups, rural area populations and the disabled 
and small businesses also have problems with getting Internet 
access as well. How we ensure continued service delivery to 
these segments while increasing their ability to participate in 
this electronic environment is an important issue. Multiple 
access methods to government service, via phone, fax, public 
kiosks, may be essential to supplement Internet use.
    The second challenge is developing a ``citizen as 
customer'' focus in government. The Internet is forcing 
organizations to rethink basic business and service delivery 
processes. How customers digest information and services in a 
viewable electronic format can significantly differ from 
traditional ways of thinking. Certainly as Internet usage 
matures for government, citizens may expect more consistent 
levels of service across agencies, such as highly navigable Web 
sites, intelligent search capabilities that go beyond static 
posting of information, and interoperable authentication 
policies and methods.
    That brings me to my third challenge, security and privacy. 
Clearly all participants in the Internet age have to feel 
comfortable with using electronic means to carry out private 
and sensitive transactions, whether it be obtaining a license, 
to bidding on a contract, paying taxes, or receiving a benefit 
claim. That comfort level varies right now and concerns are 
certainly not unjustified. As our work has pointed out, 
information security weaknesses persist across the Federal 
Government and they are compounded by the openness of the 
Internet. The Melissa, ``ILoveYou'' and now the ``NewLove'' 
computer viruses remind us that the interconnectivity of the 
Internet warrants special attention to security and privacy 
issues. A big piece of the solution to this problem will be the 
continued development and implementation of the Public Key 
Infrastructure [PKI], technology.
    Stated simply, PKI is a system of computers, software, and 
data that rely on specific cryptographic techniques to secure 
on-line messages or transactions. There are some 24 PKI pilot 
programs in place across the Federal Government. There are some 
key questions involving the interoperability of certificates 
used in these programs. GSA is leading a governmentwide effort 
to facilitate public secure access to government information 
and services through its ACES, or Access Certificates for 
Electronic Services program. Experience has been limited to 
date, with the first vendor authorized to issue certificates 
just last month.
    The fourth challenge deals with other technology-related 
issues associated with e-government that simply cannot be 
ignored. Computers and networks allow information and services 
to be organized in dramatic new ways. Adequate technical 
infrastructure is absolutely essential for the Federal 
Government to move in this direction. That means that network 
capacity planning and acquisitions to support both the 
increased electronic traffic and the diverse voice, data, and 
video offerings are necessary. Operating system and software 
reliability matters take on a new level of priority when your 
transactions move on-line, especially in a 7-day a week, 24-
hour environment. Good business and system architecture 
planning are also two areas where GAO has done significant 
work, and it must be done well to avoid increased and 
unnecessary investment costs, development times, and 
performance shortcomings.
    The fifth and final challenge deals with human capital 
issues. This year it is estimated that employers will seek to 
fill 1.6 million new IT jobs, with the greatest demand for 
enterprise systems integration and Web development positions. 
We have a situation of high work complexity and scarcity of 
qualified applicants. The public and private sectors are 
competing with each other in these areas and the Federal 
Government is increasing its outsourced IT services and 
development, it has further increased the demand for 
traditional skills like project and contract management.
    In conclusion, Mr. Chairman, in the future, the promise of 
Internet-based technologies offers exciting new ways for 
government to more effectively and efficiently interact with 
and provide services to citizens. It is already happening, as 
advanced by the examples I have offered and those yet to be 
discussed by our other panelists.
    The Federal Government is certainly not standing still, and 
expectations, if not set by citizens themselves, are clearly 
set both by law and Presidential actions. The speed, the pace 
and the direction of Internet-based solutions in government 
will vary. They must effectively deal with so many of the same 
basic challenges that all technology initiatives face in both 
the public and private sector. Government executives must work 
effectively with their CIOs and they must embrace e-government 
proposals and work with Congress to develop effective 
investment strategies that will make them realities, and we 
must expect that these investments demonstrate their impact by 
lowering costs, raising productivity, enhancing service 
delivery quality and timeliness, and freeing up resources and 
management attention for other problem areas and priorities.
    Thank you, Mr. Chairman. That concludes my remarks. I will 
be happy to respond to any questions.
    [The prepared statement of Mr. McClure follows:]

    [GRAPHIC] [TIFF OMITTED] T1535.001
    
    [GRAPHIC] [TIFF OMITTED] T1535.002
    
    [GRAPHIC] [TIFF OMITTED] T1535.003
    
    [GRAPHIC] [TIFF OMITTED] T1535.004
    
    [GRAPHIC] [TIFF OMITTED] T1535.005
    
    [GRAPHIC] [TIFF OMITTED] T1535.006
    
    [GRAPHIC] [TIFF OMITTED] T1535.007
    
    [GRAPHIC] [TIFF OMITTED] T1535.008
    
    [GRAPHIC] [TIFF OMITTED] T1535.009
    
    [GRAPHIC] [TIFF OMITTED] T1535.010
    
    [GRAPHIC] [TIFF OMITTED] T1535.011
    
    [GRAPHIC] [TIFF OMITTED] T1535.012
    
    [GRAPHIC] [TIFF OMITTED] T1535.013
    
    [GRAPHIC] [TIFF OMITTED] T1535.014
    
    [GRAPHIC] [TIFF OMITTED] T1535.015
    
    [GRAPHIC] [TIFF OMITTED] T1535.016
    
    [GRAPHIC] [TIFF OMITTED] T1535.017
    
    [GRAPHIC] [TIFF OMITTED] T1535.018
    
    [GRAPHIC] [TIFF OMITTED] T1535.019
    
    [GRAPHIC] [TIFF OMITTED] T1535.020
    
    [GRAPHIC] [TIFF OMITTED] T1535.021
    
    Mr. Horn. Thank you, Mr. McClure.
    Mr. Molaski, we are delighted to have you with us. He is 
the Chief Information Officer from the Department of 
Transportation.
    Mr. Molaski. Thank you very much, Chairman Horn and 
Congressman Davis, for this opportunity to discuss electronic 
government.
    I am pleased to be making my first appearance before the 
subcommittee to address the challenges and opportunities we 
face in migrating to an e-government environment. I appreciate 
having the opportunity to offer the perspective of someone who 
up until last June worked in the information technology 
environment as president of an Internet company and now is a 
Federal Chief Information Officer and also serving as co-chair 
for the E-government Committee for the CIO Council.
    As most of us here today realize, we are sitting on the 
threshold of a major transformation of government. Industry has 
shown the effective use of Intra and Internet companies to 
build stronger ties with their customers, deliver information 
and services more effectively, and drive costs out of business 
processes. Government has made the first steps down the same 
operations road, but we must more fully embrace the use of 
these and future technology advances to truly transform 
government into a customer-centric, interactive, responsive, 
results-based entity that prides itself in the effective low 
cost delivery of services to its stakeholders.
    We have the opportunity to make this vision a reality. 
However, we must be willing to change traditional ways of doing 
business and learn to operate in Web time. As a start, we could 
reduce our dependency on paper processes and make doing 
business electronically our modus operandi. Accepting 
information electronically instead of requiring multiple paper 
copies of documents would improve efficiency and be 
environmentally friendly.
    While we as a government need to move farther faster, much 
has been accomplished. The Government has created over 20,000 
Web sites, containing over 100 million Web pages. Citizens can 
now buy coins from the U.S. Mint site, students can apply and 
find the status of their loan application on the Department of 
Education student loan site. Drivers can find the results of 
automobile crash tests from our NHTSA website. Computer road 
warriors can have better information on the status of a flight 
than passenger agents at an airport by viewing an FAA radar 
feed available on many travel Web sites.
    However, many Federal Government stakeholders do not know 
where in the Government to go to get information or 
instructions on how to do something. Work is underway to 
develop a central access Web site to government that would 
serve as an electronic service center/help desk to guide the 
stakeholder to the site or the person that can provide the 
requested information or answer questions that the individual 
stakeholder has. This would be a unique and a valuable 
contribution by government to its citizens. This gateway to 
government Web site would be more attuned to the information 
and service needs of the public and what they are getting from 
the commercial sites.
    I consider this type of site to have wow factor and by that 
I mean when citizens come up there they can say, wow, my 
government finally got it right. But to truly take advantage of 
the opportunities e-government brings, we must move beyond 
providing information and services or doing transactions over 
the Web. We need to make them partners in the deliberations on 
issues we are wrestling with and be responsive to their 
suggestions for improvements, streamlining and providing new 
services, or eliminating outdated services.
    When we look at the Internet, the Internet was built really 
as a Web of communication of individuals out there. It was not 
built on just providing information or doing transactions. 
Those are really no brainers, but when we get to the point 
where we are truly interacting with citizens out there and 
stakeholders, then we have really accomplished something.
    I have included in my testimony three areas where we talk 
about having structural changes, and that is looking at the 
CIOs and the authority CIOs have. That is taking a look at the 
work force challenge that we have, and that was reported in 
June 1999 on ``Meeting the Federal IT Workforce Challenge,'' 
done by the CIO Council, which is done on the Web site 
www.cio.gov, and then finally it is taking a look at what 
happens when we get to e-government, and what e-government is 
going to reveal is a lot of the stovepipes that we have both in 
all branches of government, and we need to think ahead. When 
somebody puts in a request for exports and allowing them to 
export something and gets multiple Web sites coming up with 
multiple sites, how are we going to handle--what process are we 
going to put in place to really take a look at how we 
consolidate those types of activities within government.
    Thank you very much, Mr. Chairman, and I will be glad to 
answer your questions.
    [The prepared statement of Mr. Molaski follows:]

    [GRAPHIC] [TIFF OMITTED] T1535.022
    
    [GRAPHIC] [TIFF OMITTED] T1535.023
    
    [GRAPHIC] [TIFF OMITTED] T1535.024
    
    [GRAPHIC] [TIFF OMITTED] T1535.025
    
    [GRAPHIC] [TIFF OMITTED] T1535.026
    
    [GRAPHIC] [TIFF OMITTED] T1535.027
    
    [GRAPHIC] [TIFF OMITTED] T1535.028
    
    [GRAPHIC] [TIFF OMITTED] T1535.029
    
    [GRAPHIC] [TIFF OMITTED] T1535.030
    
    Mr. Horn. Thank you very much. That is a very helpful 
presentation. And now I am delighted to see that the Honorable 
Don Upson, Secretary of Technology for the Commonwealth of 
Virginia, has made it out of the suburban traffic of Richmond 
up to the beautiful part of northern Virginia.
    Mr. Davis. May I say one word on the Honorable Don Upson. I 
had the privilege of working with Mr. Upson in our previous 
lives in the private sector and he has been a mentor to me on a 
number of these issues, and he used to be a staff member of 
this committee. He is the first Secretary of Technology. I am 
pleased to welcome you here.
    Mr. Horn. And he is a graduate of the beautiful campus. 
That was known as the playboy school. However, he did learn 
computing along the way.
    I have to swear you in, as you know.
    [Witness sworn.]
    Mr. Upson. Mr. Chairman, members of the committee, 
subcommittee, welcome. As a former Republican staff director of 
Government Operations, it is a pleasure to be here and it is a 
pleasure to be here in this building, which is in the Center of 
Innovative Technology. I always welcome people to northern 
Virginia, which is the most exciting place on the planet in the 
most exciting period of the history of man. Congressman Tom 
Davis welcomes people to his congressional district and it is 
both the same.
    Mr. Chairman, I know my testimony is going into the record. 
I would like to talk about a couple of things that I think we 
are doing that are special in Virginia and how that might 
translate into what you are trying to do at the Federal level. 
What I think is special and at the forefront is that the chief 
executive walks the talk and Governor Gilmore put in place a 
structure of government for technology which I think links the 
critical functions of infrastructure with policy. If you look 
at what is going on in the private sector today, the chief 
information officers are very quickly the heirs to be chief 
executive officers in the next generation of leadership in 
corporate America.
    The infrastructure is the enterprise and as someone who 
took this job with a little trepidation, having worked in your 
field for a long time, I wasn't sure where this would go, and I 
can tell you there is an appreciation in Virginia, time and 
time and time again I get pulled aside. If you are doing your 
job you are stepping on toes, and I think you know where those 
toes are because we need a government that is responsive as an 
enterprise to the needs of our citizens.
    Our vision for technology in general: Generally, the 
Governor views technology as the focus for his administration 
to do two things. One, we have an objective to create the best 
business environment anywhere. Two, provide all our citizens 
access to this new economy. Government should serve those 
functions, but I would ask and I think what we have done 
special in Virginia is, with the chief executive support, 
created an Interagency Management Council which reports at the 
right level of government, and I think often that has been the 
one of the issues at the Federal level. I have an Interagency 
Management Council that meets monthly, and it is that council, 
23 members, 17 from each major agency and department, what they 
do is meet monthly and they are charged with creating 
electronic government, creating a desk top environment that is 
standard, fast, and permanently modern, which gets to this 
whole notion of leasing versus buying computers, which you will 
find often occurs agency by agency, platform by platform. A 
digital signature environment. Without a real digital signature 
environment, there is no electronic government.
    Privacy and security. Now, to us electronic government, 
while these individuals have respective close leadership in 
their organization, they also meet monthly and are ordained by 
the Governor to put in place enterprise systems. It is not good 
enough that agencies take their functions and put them on-line. 
What is important is that when things go on-line, they are 
coordinated, they are in uniform communications.
    Our vision is of a citizen looking through a single port 
executing multiple transactions across multiple agencies with a 
single digital signal. To get there, we have to have a buy-in 
from the agencies themselves, and I think that is what we 
created through our council.
    The Governor has issued one executive order requiring 
priorities for each agency, their priorities for electronic 
government to be put in place and submitted to the Secretary of 
Technology by June 1. He is following that up this week with 
what may be one of the most comprehensive electronic government 
executive orders anywhere, asking implementation plans for seed 
management from every agency of government. Seed management is 
not a contract in Virginia. It is an initiative to put 
permanent state-of-the-art technology on every desktop.
    Digital signatures. It is not important that every agency 
puts in place the digital signature plan. We have to have a 
single policy that cuts across all platforms, all agencies. 
Security of our data, which is one of the biggest concerns to 
citizens, isn't about police protecting their data one way and 
corrections protecting it another and the tax system another. 
That puts all systems at a high level of vulnerability. It is 
about a scalable, standardized security environment, and you 
don't get there unless you have the buy-in and cooperation of 
the participating agencies.
    I see my yellow light is on. I would like to end that the 
Federal Government, we interact quite regularly with the 
Federal Government, especially in the area of procurement. It 
has done much in the area of procurement. But I think what is--
and it is great that there is a CIO Council. I think the 
questions that you have to ask in your positions, are the 
officers that hold those positions at the right level. It will 
be a rare Assistant Secretary of CIO that you find at the 
Federal level that thinks have not changed much, and it is a 
rare Secretary that asks for technology and how does technology 
play or not play in this, and it is establishing that link 
between the person that controls the infrastructure and the 
policy that I think is what we have done in Virginia. I think 
it has captured the imagination and interest of our 
communication and education community and our Governor, and the 
red light went off.
    Thank you, Mr. Chairman, for having me.
    [The prepared statement of Mr. Upson follows:]

    [GRAPHIC] [TIFF OMITTED] T1535.031
    
    [GRAPHIC] [TIFF OMITTED] T1535.032
    
    [GRAPHIC] [TIFF OMITTED] T1535.033
    
    [GRAPHIC] [TIFF OMITTED] T1535.034
    
    [GRAPHIC] [TIFF OMITTED] T1535.035
    
    [GRAPHIC] [TIFF OMITTED] T1535.036
    
    [GRAPHIC] [TIFF OMITTED] T1535.037
    
    Mr. Horn. We appreciate you coming and your last comments 
get into CIO placement. You are absolutely correct. We now go 
to the president and Chief Executive Officer, Council for 
Excellence in Government.
    Ms. McGinnis. Thank you, Mr. Chairman. I want to applaud 
your leadership in creating this conversation to imagine the 
possibilities of e-government and designing a strategy to carry 
it out. The Center for Innovative Technology is a perfect 
setting for this hearing, and the conversation is really about 
connecting government with the American people, and in this 
part of Virginia there is a lot of connecting going on with 
very entrepreneurial enterprises not only thinking about 
pushing the envelope of technology but focusing on delighting 
their customers. Kathleen deLaski from AOL is here and it is 
definitely one. There are many others.
    My organization is the Council for Excellence in 
Government. We are a nonpartisan, nonprofit group of leaders in 
the private sector who have served in government and are 
committed to improving its performance and also raising the 
understanding, participation, and confidence of the American 
people in government, so our work is aimed at two audiences: 
First, people in government with whom we have worked to improve 
results and leadership and actually get results in the public 
interest and also the American people, most of whom at this 
point say they feel disconnected from government.
    According to a poll that was conducted for the council last 
year by Peter Hart and Bob Teeter, most Americans, especially 
young people, say that government is no longer of, by, and for 
the people. They think of it as the Government rather than our 
government and we take this as a significant challenge that the 
work that you are doing can go a long way to address that.
    The good news in our research is that most Americans, again 
especially young people, think that in terms of improving 
people's lives, government will play an equally or more 
important role in the future and they see themselves as an 
important part of the solution, even more than elected 
officials, by the way. They want to be more involved, and I 
think these initiatives are going to provide that opportunity. 
So with a mission as important as excellence in government and 
an audience as large as the American people, naturally we have 
focused on information technology and the Internet as a way of 
accelerating change and also as a leadership tool.
    Imagine government of, by, and for the people and proceed 
that way, hopefully perceived that way, where all Americans can 
choose to go on-line anytime, anywhere, not only for the 
information they need but also to complete transactions, 
receive services, conduct research, interact with their 
representatives, and even to vote. Imagine people in government 
creatively managing for results, from curing diseases to 
regulating health and safety to providing Social Security and 
Medicare benefits in a seamless network which crosses agency 
and process boundaries and seeks to serve the public interest.
    That is the vision of e-government that has been created by 
our Intergovernmental Technology Leadership Consortium and a 
very substantial e-government initiative that we have 
undertaken, involving 100 leaders from the public and private 
sector, the research community and the nonprofit community.
    We have held two major meetings, one at the Smithsonian, a 
historic setting, and the other one here at CIT last March, and 
the people involved have organized themselves into four working 
groups addressing four issues. First, they are looking at 
transformation by addressing the challenge of transforming 
rather than simply automating government. Thinking about the 
culture, the organization, the processes, how it all works.
    Second, they are looking at the roles of the public and 
private sector in terms of who should do what, what are the 
comparative advantages in creating the e-government that we 
seek.
    Third, we are looking at infrastructure, addressing the 
issues that have been raised this morning and are extremely 
important, issues of privacy, security and authentication.
    And fourth, we are looking at information. That is the 
content, format, architecture and accessibility of information.
    The Congress has put a stake in the ground through the 
Paperwork Reduction Act, saying that all Federal services and 
transactions will be offered on-line by 2003. We have got a 
long way to go but I think we can meet that goal and the e-
government initiative that we have put together is aimed at 
helping to meet that goal.
    We are not at this point ready to offer specific 
recommendations. We plan to have a blueprint and release it in 
the fall. When you have 100 people working together, you want 
to be careful that you consider all of the options and listen 
to different perspectives before you end up with specific 
recommendations, but there are several principles which will 
guide our blueprint and I think will help in your deliberations 
as well.
    We envision e-government as, first, citizen driven and user 
friendly. More and more people are becoming accustomed to using 
the Internet 24 hours a day, 7 days a week, and information has 
to be organized to how people will use it rather than how the 
agencies create it. People want one-stop access without having 
to go from Web site to Web site. We actually said in our last 
meeting ``three clicks to satisfaction'' ought to be the motto 
for e-government.
    Second, it has to be responsive and results oriented, and 
by that I mean not just providing information but allowing 
people to actually complete transactions and receive services 
on-line. The best example is in Virginia, where citizens can 
renew their driver's licenses on-line. This was mentioned in a 
conference a couple of weeks ago and the whole room broke out 
in applause. There are Federal services and transactions that 
occur on-line, you can file for taxes and apply for student 
aid, but it is still a very small percentage and it needs to 
grow.
    Third, e-government has to be universally accessible. You 
mentioned the digital divide. It is real and we need to address 
it. We need to be careful not to lock into any one technology 
in addressing it because it may be through hand-held devices, 
cable television, in addition to computers and all of the 
efforts that are going on in communities, libraries, schools 
and homes. We can't address this, but it has to be done.
    Fourth, e-government has to be collaborative. That is the 
public and private sectors working together doing what they do 
best. And the Federal Government has to play a certain role, 
but the private sector has a lot to contribute and we need to 
figure out how to harness that in an accountable way.
    Fifth, it has to be innovative, not just thinking about 
transactions. We gave an Innovations in American Government 
Award last year, for example, to the Centers for Disease 
Control for an Internet tracking system for DNA fingerprinting 
of foodborne diseases so the E. coli breakout of a few years 
ago will never have the impact again because it will be tracked 
down too fast.
    Sixth, it has to be cost effective, and we know that it can 
be cost effective. IBM's Institute for Electronic Government, 
one of our partners, has indicated that the governments that 
they are working with are saving up to 70 percent by moving 
services on-line. The Department of Agriculture, as you know, 
issued its organic food standard regulations on-line and 
received more comments than ever in history and saved money. 
The administrative costs were $300,000 less than they expected.
    And seventh, it has to be of course secure and private. 
There has been a lot of discussion about that. There is no 
question that we have to address that issue.
    The transformation to e-government will require leadership 
at all levels starting at the top, and that has been mentioned 
a number of times. It will require significant investments in 
technology and people. Even though there may be savings in the 
long term, I think we can also look at some up front 
investments and, particularly, investing in ways that can cross 
agency boundaries that we are all confronted with, and a lot 
more flexibility in funding and personnel policies. Perhaps as 
we consider what it will take to attract, develop and retain a 
high quality information technology work force in the Federal 
Government, and we have to do that, we will also discover ways 
to invigorate the Federal civil service.
    We welcome the opportunity to help you design a system for 
e-government which cannot only improve performance but also 
help deliver government back to the American people. Thank you.
    [The prepared statement of Ms. McGinnis follows:]

    [GRAPHIC] [TIFF OMITTED] T1535.038
    
    [GRAPHIC] [TIFF OMITTED] T1535.039
    
    [GRAPHIC] [TIFF OMITTED] T1535.040
    
    [GRAPHIC] [TIFF OMITTED] T1535.041
    
    [GRAPHIC] [TIFF OMITTED] T1535.042
    
    Mr. Horn. Thank you. That is very helpful. We will take up 
that offer. Our next panelist is somewhere in the midst of 
Philadelphia, so David Gardiner did not make it. He is the vice 
president, architecture and technology of Unisys Corp., but Lee 
Cooper is here in his stead. He is the vice president, business 
development, U.S. Federal Government Group. It is nice to have 
you here.
    Mr. Cooper. Thank you, Mr. Chairman, and Mr. Davis, for the 
opportunity to share with you my observations on the dynamic 
changes taking place in the e-business arena today. My name is 
Lee Cooper and I am the vice president of Business Development 
at Unisys Corp. I am testifying on behalf of both Unisys and 
the Professional Services Council, of which Unisys is a long-
standing member. The Professional Services Council is the 
principle trade association representing the professional and 
technical services industry. This segment performs more than 
$400 billion in services nationally, including over $100 
billion annually in support of the Federal Government.
    Unisys is a $7\1/2\ billion electronic business solutions 
company whose 36,000 employees help customers in 100 countries 
build and manage the infrastructure they need to conduct e-
business. Unisys derives about $1 billion of its annual 
revenues from business conducted from within the U.S. Federal 
Government, from the Federal Government Group headquartered in 
McLean, VA.
    Let me begin by providing a framework for where Unisys 
believes the e-business marketplace to be heading. I would like 
to summarize points made in the written testimony submitted to 
the committee. These points are derived from our experience at 
Unisys as we have strived to become a premier e-business 
company.
    There are three main ideas. First, we see an emerging 7 by 
24 electronic business environment that will require new levels 
of computing and network infrastructure. We believe that e-
business will really be about managing the growth of the number 
of transactions conducted electronically. As commercial 
organizations increasingly interact electronically with our 
customers, suppliers and employees, new service standards are 
quickly emerging. These new standards will address 
efficiencies, speed and value. Governments are serving the same 
end users, therefore we believe that these same service 
expectations will become the baseline for interactions with the 
Government.
    Cost efficiencies are part of the benefit accruing to 
commercial organizations from electronically serving their 
customers. The cost of an electronic transaction is pennies 
compared to a direct face-to-face interaction with a customer 
service employee. This means that there are cost reduction 
opportunities for governmental organizations that adopt e-
business models of operation. It also means that commercial e-
business organizations will increasingly compete to outsource 
government services if government computing infrastructures are 
unable to handle a constituent's service needs in a similar 
manner.
    Second, our experiences at Unisys suggest that once the 
computing and network infrastructure is in place, organizations 
should expect a rapid acceleration of e-mail, voice mail, and 
other computer based communications volume leading to vibrant 
e-communities. We use that term to describe large groups of 
people connected by organizational and other ties, 
electronically communicating with each other at high intensity. 
We have found once a global e-mail standard was established, we 
saw e-mail volume explode. We are now managing over a million 
per day and the volume continues to grow. We believe that 
government organizations should anticipate similar results as 
they interconnect their employees.
    Government should also prepare for the challenging 
technology resource management issues associated with these 
tools. Examples are desk top hardware complexity, network 
bandwidth growth and support personnel retention. We see 
opportunities to develop information portals which can help 
address productivity opportunities and strengthen 
organizational culture. Unisys defines a portal as a Web site 
that provides a common meeting ground for a population that 
shares a common interest or organizational mission. The best 
portals provide a means to easily locate information and use. 
They also provide access to other internal and external Web 
sites and databases. Portals can be equally effective in 
attracting customers and constituents with news, general 
information and transaction capabilities. Unisys believes that 
portal development holds strong promise for progressive 
organizations of all types.
    Third, computing and networking infrastructure needed for 
the e-business environment also facilitates delivery of 
sophisticated Web-based tools to improve manager and employee 
productivity, satisfaction and loyalty, and allows deployment 
of world class business processes. These tools, now in wide 
commercial implementation, will quickly become a standard that 
commercial and public sector organizations will implement. One 
example is the electronic customer relationship management. 
Customer relationship management is on-line automation of the 
monitoring and management of customer transactions and 
relationships. This is a key requirement in the e-business 
world. As governments continue their shift to viewing 
constituents as customers, the likelihood is that the CRM tools 
now transforming commercial organizations will be adopted by 
the public sector with similar transformational impact. 
Government organizations may find this direction challenging, 
especially where incumbent legacy systems are well-ingrained 
and process culture and employee acceptance. But over the 
longer period, adoption of world class solutions for core 
process delivers the best performance results.
    In closing, let me underscore one important point. The key 
benefits in productivity, communication, speed of operation, 
service quality, and value delivery that derive from the e-
business transformation that Unisys and other commercial 
organizations are now pursuing are dependent on a robust, 
innovative, standards-based computing, and network 
infrastructure. Successful deployment of e-business capability 
in the commercial and public sector will depend on that 
infrastructure.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gardiner follows:]

    [GRAPHIC] [TIFF OMITTED] T1535.043
    
    [GRAPHIC] [TIFF OMITTED] T1535.044
    
    [GRAPHIC] [TIFF OMITTED] T1535.045
    
    [GRAPHIC] [TIFF OMITTED] T1535.046
    
    [GRAPHIC] [TIFF OMITTED] T1535.047
    
    [GRAPHIC] [TIFF OMITTED] T1535.048
    
    [GRAPHIC] [TIFF OMITTED] T1535.049
    
    [GRAPHIC] [TIFF OMITTED] T1535.050
    
    [GRAPHIC] [TIFF OMITTED] T1535.051
    
    [GRAPHIC] [TIFF OMITTED] T1535.052
    
    [GRAPHIC] [TIFF OMITTED] T1535.053
    
    [GRAPHIC] [TIFF OMITTED] T1535.054
    
    [GRAPHIC] [TIFF OMITTED] T1535.055
    
    [GRAPHIC] [TIFF OMITTED] T1535.056
    
    [GRAPHIC] [TIFF OMITTED] T1535.057
    
    [GRAPHIC] [TIFF OMITTED] T1535.058
    
    Mr. Horn. Thank you very much. We appreciate that. Give Mr. 
Gardiner our best. We are sorry that he couldn't make it. You 
did a great job.
    Our last presenter is Kathleen deLaski, group director, 
editorial products, America Online. I hope you have stock 
options.
    Ms. deLaski. Of course. Welcome to our neighborhood. Thank 
you, Chairman Horn, for inviting me to speak and Representative 
Davis as well.
    In the lobby of AOL, which is just down the road, our 
plaque that states our mission statement is that we strive to 
make the Internet central to people's lives, as central to 
their lives as the telephone and the television and even more 
convenient, and nowhere more so in e-government is the 
opportunity to reinvent, to borrow another expression, is this 
more prevalent than in the government space. We began--we saw 
the promise in 1996 and began in the Presidential cycle that 
year trying to develop ways that consumers could have on-demand 
access to information about the candidates that were running 
against each other, to be able to cut through the 30-second 
sound bites. We saw even at that early stage hundreds of 
thousands, more than a million visitors to that kind of 
information, and we saw the promise then.
    In 1998, we developed a site called My Government, which 
allowed a member--our members; in other words, citizens, to 
type in their ZIP Code and up pops the pictures and contact 
information for all of the people that represent them down 
through the State level so you could e-mail and track their 
votes. That also was very successful.
    In late 1999, we launched a brand new service, Government 
Guide. We saw the explosion coming of services, as we have all 
been talking today, on the Web, and we began to try to figure 
out what is the best way to present that to the consumer and it 
quickly became apparent that you needed to organize it by 
consumer needs instead of by agencies. And we are in the middle 
of developing a State and local version of this, but the piece 
that we launched last December is mainly a Federal site. It is 
called Government Guide on AOL. It is also on the Web.
    I brought--since we couldn't show pictures of it, I brought 
some color copies so you can see what it looks like afterwards. 
But it has been very successful and it says to us that the 
demand is there, as most of us suspected. But our way of doing 
it is to--for instance, we have developed checklists, 
government checklists that allow you to answer a series of 
questions about paying for college through Federal student 
loans, can I file my taxes electronically. We partnered with 
the IRS this year to offer that service. How do I get a 
passport or visa which walks you through from what types of 
forms do I need to fill out to where is the post office that I 
can pick this thing up. These have started to become very 
popular.
    Our government services site is growing 100 percent a 
month. We saw 13 million page views last month, which means 
that 13 million sets of eyeballs are seeing government 
information that didn't have on-demand access to that 
information even 6 months ago.
    Consumers have come to expect a lot from government. They 
want renewing the driver's license in Virginia or paying their 
taxes to be as easy as ordering a book from Amazon.com which 
has become very easy, and so that is where the bar is. And 
while there are some impressive examples in Federal Government, 
we feel and I know that many of the government agencies feel as 
well that information is still either too hard to find, too out 
of date or simply not available in a digital format. So I have 
three areas that I would just like to touch on by way of 
suggestion in the short to medium term.
    First of all, the notion that the Federal Government should 
try to be an AOL or a Yahoo, to create portals is I think 
valiant but may be very difficult. We believe that it is the 
role of government to create the applications on-line, to Web-
enable paying your taxes, to Web-enable getting your passport 
or voting, but to try to create the consumer interface across 
many agencies is a very difficult job and there are specialists 
in this field, and AOL is not the only one but we have enough 
trouble hiring people to do this for us and we have stock 
options, as you said.
    So the examples that we have seen of this at the Federal 
Government level, the people involved in these projects are 
very up front about how difficult it is, No. 1, to make the 
portals work but also to drive traffic to them. This is what 
any dot-com will tell you; you can build it but they won't 
necessarily come. So where we have been able to help with 
government agencies is in driving traffic to the applications 
and we recommend a syndication model whereby all of the dot-
coms will drive traffic to the Mint site, for instance, or the 
Social Security application forms.
    The second thing that I wanted to mention is the whole area 
that has been talked about already here, digital security 
authentication privacy. I am not an expert on the pending 
legislation on digital signature right now, but we do feel that 
it will go a long way to Web-enabling government. It is true 
that we really have been having to cobble together strategies 
in the absence of such legislation whereby digital signature 
means that you can bring a lot of the transactions, both 
financial and information on-line. What we can't stress enough 
is the importance that these applications, these digital 
signatures, the digital certificates be handled in a way that 
they are not an impediment to the consumer because it has been 
very difficult to look at different technologies across the 
board and try and make them interoperable. If I have to have 
one pin number to renew my driver's license in Virginia and 
another one for every other consumer transaction I want to 
conduct, that is going to be very difficult and I think an 
impediment to progress.
    Finally, I want to make one quick point about Members of 
Congress as well as agencies continuing on the drive to have 
public e-mail addresses. We find that consumers, their No. 1 
desire is to be able to communicate with somebody at the other 
end and to the extent that we can empower through mail systems 
and good back office consumer-oriented service centers at the 
individual agencies and on Capitol Hill, that will go a long 
way to making feel that there is someone on the other end of 
not only the phone but of the e-mail.
    Thank you.
    [The prepared statement of Ms. deLaski follows:]

    [GRAPHIC] [TIFF OMITTED] T1535.059
    
    [GRAPHIC] [TIFF OMITTED] T1535.060
    
    Mr. Horn. Thank you. We will now start the Q and A, and I 
yield 10 minutes to Mr. Davis, the gentleman from Virginia, for 
questioning.
    Mr. Davis. Let me say that e-mail is the most frustrating 
part of the job. The e-mails are messed up half the time and 
sometimes they are a couple days late and we can't respond.
    Ms. deLaski. Yes, sir.
    Mr. Davis. It is all security related. We don't have it 
right now.
    Ms. deLaski. Right.
    Mr. Davis. During the impeachment I was getting 2,000 to 
3,000 e-mails a day. People know how to find us; at least they 
can find us.
    I have a fundamental question.
    Mr. Molaski, we are dealing now with a government structure 
that is starting to change a little bit in the way that 
government is organized. My question would be do we really have 
a structure? You see what Virginia has done with the Secretary 
of Technology. Don, you had turf fights. Nobody wants to give 
up turf. They have created the Technology Committee, but it is 
turf fights who is going to have oversight and that means a lot 
in fundraising. How does it work having one oversight, and I 
get asked at the Federal level, should we have a chief 
information officer over all of the other chief information 
officers. What is the coordination?
    Mr. Upson. My response would be that it is a progress, the 
Federal Government is making progress but there is no time to 
go as slow as it has been going. I think you need two things in 
the structure. The individuals responsible for technology 
within an organization, within the departments should have 
power. They should be at least Assistant Secretary and the law 
exists to do that. You need a position to have authority within 
its own organization, and the collective authority reporting to 
not only the Federal Government but you have a Secretary of 
Technology, but maybe the Director of OMB, monthly meetings 
where the Interagency Management Council meets and at the 
President's direction are working. I think there has been a lot 
of talk. I think $36 billion is spent at the Federal level. 
NPR, the GITS committee, the Hammer awards, they are great 
things, but I often say they are like well-tuned instruments in 
a high school band playing different songs. You need power in 
the organization and power in a collective group, and I think 
that I would challenge you for the things that have been done.
    NPR has great goals. What were the big three 
accomplishments? And do the citizens know and what is the 
vision for electronic government, and I don't see that 
executive leadership coming. I think that Congress has built a 
foundation against which you can work. I think you could have 
assistant secretaries right now. I think you could make those 
assistant secretaries part of an Interagency Management Council 
reporting to an OMB Director, and I think you could reform 
procurement. You could take GSA and put it--what I think is 
interesting, Mr. Davis, you have got every agency of government 
putting out contract vehicles to sell computers not only with 
themselves but everybody else. NIH should be curing diseases, 
not selling computers. I think if you had an independent GSA 
along a Postal Service model, try to put together a structure 
that empowers and allows the professionals of the 
infrastructure to manage not only the infrastructure and build 
it, but to connect the bigger policy initiatives.
    Mr. Davis. We found in Y2K that you have some CIOs who have 
empowerment, and in Y2K we found there are some agencies who 
could walk the talk and there are others that didn't. It is 
frustrating.
    Mr. Upson. The biggest challenge to electronic government 
and the reason that it cannot work without that structure is 
that government agencies, like bureaucracies in the private 
sector, they behave as stovepipes and they want to do things 
their own way. As America Online said, everybody will have a 
digital signature environment and security environment which 
puts at risk all of the databases that we have in the 
government. Because--by the way, I would say that the 
interagency management council at the Federal level ought to 
include some State and local representatives, and maybe some 
from the private sector. Everything that we do connects to the 
Federal Government. People are not concerned about privacy per 
se. If they were, you wouldn't have $1 trillion in e-commerce. 
They are concerned about the government. We are the ones with 
police records, criminal records, the driving records, health 
records. Unless we have that standardized continuum across 
government, I don't see it working. I think that the structure 
is at the level that needs to be at the Federal level.
    Mr. Molaski. I believe that the structure has to be 
revamped within the Federal Government at this time. I think 
that the CIOs have made long strides since they were first 
implemented in 1996, and I think it is time that--as the 
Secretary has said, Secretary Upson, that they be given more 
power and authority over the information technology structures 
and operations within each one of their individual agencies.
    We have an organization called CIO council, which is an 
organization, an interagency body involving all of the CIOs 
within the Federal Government. Unfortunately, it has no teeth. 
Any recommendation that comes from it or that comes out of the 
CIO council is voluntary for the agencies.
    I would suggest that we follow similar cascading-down type 
of structures within the CIO community where it starts with the 
CIO council, and the council has power to be able to make some 
decisions, and especially as it is attuned to infrastructure. 
Then each one of the individual CIOs not only becomes an 
Assistant Secretary, but also has operations underneath them. 
Many of the CIOs are not responsible for the infrastructure 
within their own agencies. And for those departments like DOT 
that have multiple bureaus and multiple agencies, each one of 
those organizations needs the CIO to work with their 
administrator and work with the CIO to determine infrastructure 
and architecture.
    The one caveat I would make is that the program people 
still need the budgetary funds and the ability to direct what 
information technology they need to be able to perform their 
missions, and that decision should be made in concert with the 
CIO. For example, I would not want to be in a position where I 
make the decision on what flight traffic control systems the 
FAA should be using. However, I should be in a position to make 
sure that they are spending their dollars wisely in those 
areas, and they are following good business practices such as 
Clinger-Cohen.
    Mr. Davis. Do you want to comment on the structural issues, 
Mr. McClure?
    Well, fedcenter.com, and several others, those are 
commercial sites that are providing citizens and businesses 
with access to on-line government transactional services. Do 
you think that government should be concerned about these or 
should we be applauding these commercial efforts?
    Mr. Molaski. I definitely think that we should be 
applauding them. I think that part of the beauty of the 
Internet is the multiple access sites that we have to the 
government. I think what government has to follow is some of 
the subscription models, like Kathleen was saying, that we need 
to be able to prepare our sites and index our sites and have 
our sites available for the rest of the Internet universe to be 
able to utilize.
    Also, we should be investing Federal Government dollars 
where industries are not, and that really works when we start 
looking at a help desk. Portals are great providing that 
information is connected to the Web sites, but if I am a 
frustrated citizen and can't find that information in three 
clicks or don't know how to use a computer, where do I go? And 
that is, where we need a multi-access help desk to be able to 
provide the services to the stakeholders so that they can get 
that information.
    Mr. Davis. We have two issues. One is where you are 
providing for the occasional citizen, but the other is 
companies who are dealing with government in terms of 
purchasing goods off the Internet, how is the government doing 
those endeavors?
    Mr. Cooper. It is a significant challenge to interact with 
the government in a common standard way. There are several 
initiatives, the electronic procurement system and GSA, other 
initiatives that have helped. The portals that have been made 
available for understanding the services available or the 
procurement activities where opportunities that are available 
to Unisys and other members of the commercial establishment.
    The key is the infrastructure and the standardization of 
the infrastructure so that we can communicate in a common way 
to a common set of databases and a common methodology. And that 
is where we are greatly missing the boat at this point. We are 
in the early stages of the second wave, as we call it in our 
testimony that was provided to the committee, where you have 
the brick-and-mortar companies coming together with the dot-
coms, those who put the pure Internet, such as AOL and the 
ability for those two to come together into a blending and work 
with the government to provide that full integrated capability 
is going to be the key to the future.
    Mr. Davis. My time is up. I would note one thing. We had 
one level of government that knew the love bug was a problem 
and by 4 a.m., they ferreted it out, but it was 11 a.m. before 
it got to other agencies. We still have problems within 
government because of the way that we are structured in terms 
of getting that information out. The more we hear from you all 
and hear anecdotes helps.
    Mr. Upson. We have a structure, and I think we are building 
a stakeholder. That love bug is a good example. We notify the 
providers and we used our management mechanisms in Y2K and 
across council to set up contacts at every agency, shut down 
the servers within State government and literally had no--
people did not communicate until we were able to put the 
patches on our servers, but we had a reporting mechanism across 
and government and we had a response, and we patched it and 24 
hours we were up and running.
    Mr. Davis. Thank you. I have to leave, but I am pleased to 
be able to join you here today, and I would like to say to all 
panelists, we appreciate you for coming here and Mr. Chairman, 
thank you for holding this hearing.
    Mr. Horn. I am glad to do it. This is a Virginia unlike 
what I came to in 1958.
    This is terrific to have all of you here. I just want to 
ask a few questions. The one that is the question that I ask 
frankly to anybody I can see on the street, as well as experts, 
and that is, how do we measure Federal programs that are a 
success. We had a hearing of this committee about 3 years ago 
in Oregon, which is the only State in the union with a guide 
for measuring the programs to see if they are working, to see 
if the people are satisfied, and I would really like to hear 
from you, just going down the line.
    What do you think we can do to get the Federal Government 
out, and obviously they have done at the local level also, your 
excellence in government and that type of thing. But I would be 
interested in what your thoughts are.
    Mr. McClure? I am sure that GAO has piles of studies on it. 
How do we get agencies to say let's use the computer to have 
people assess these programs? On the other hand, you have got a 
whole group of people that you leave out when you do that. Do 
you take a random position that most pollsters would do or how 
do you do it? Do you say we did it this way and here are the 
data and here is what we are doing on this side on the 
noncomputer side.
    I think the help desk is certainly a good idea to get all 
of these systems that you use and you can use very 
constructively to have people look at the agency.
    Mr. McClure. Well, Mr. Chairman, the value coming from 
investments and technology is always a challenging area. It 
requires a combination of quantitative and qualitative 
information.
    One of the things that you'll see good companies, public or 
private, focusing on when they are investing in technology 
solutions are metrics that focus on speed, cost and quality. If 
you can show how you are improving those kinds of operational 
metrics in your organization in investments in technology, you 
can show that you are having an impact.
    There are other measures that are more soft, such as 
enhanced customer satisfaction, that are just as revealing and 
important to show that you are moving your business, your 
operations and your program outcomes in the right direction. In 
our advice to agencies that are struggling in the Federal 
Government with measurement issues, we argue that there is a 
real need to focus on both quantitative hard ROI-type numbers 
and qualitative data that can come from surveys and 
interactions with customers to know that you are producing good 
results, and I think that is where the heart of the matter 
lies.
    Mr. Horn. Any thoughts, Mr. Molaski?
    Mr. Molaski. Fortunately, when I was appointed 11 months 
ago, I joined an agency which was leading the government as far 
as performance measures, and that is the Department of 
Transportation, and they have been noted for their strategic 
plan and performance measures and their performance report this 
past year.
    That said, it is an evolving process that we have to get 
better at. We need to be able to have a dashboard for each 
agency not too unlike your grading system in Y2K that indicates 
what the agencies are doing as far as around their primary 
goals. For example, in the Department of Transportation, one of 
our goals is north star safety. We need and have been reporting 
internally to each other as far as how are we doing on that. We 
need to be able to simplify that to a great extent, to be able 
to come up with an index of some sort that we can work with and 
show Congress and show the public exactly the good work that we 
are doing.
    Mr. Horn. Are there other Federal agencies, say the 24 or 
so other agencies and departments, are they doing some of this 
program analysis work?
    Mr. Molaski. I really can't comment on other agencies 
outside of DOT because----
    Mr. Horn. At the CIO level, do they ever discuss some of 
these possibilities?
    Mr. Molaski. We are looking at--one of our committees right 
now is on the security situation. We are more focused on 
technology as opposed to program relevancy. Our security 
committee right now is coming up with a security maturity 
model, and what that means is that we come up with a model that 
agencies can actually take a look at and where they fit within 
the maturity model on security so they have some ideas, and so 
that the administrators have some ideas of where they fit 
within the spectrum.
    Mr. Horn. Mr. Upson, in your role as Secretary, does the 
Governor say how do we look at some of these agencies I 
inherited? And have you used that to some degree and if so, how 
have you used it?
    Mr. Upson. Not so much in your question in terms of 
measurement, but actually, we took, and I meant to commend you, 
and I think I did in my written testimony, in the approach that 
this--that your subcommittee took with Y2K. What you asked 
fundamentally: What do the agencies do and what is important? 
We have changed a little of that. We now have a blueprint for 
what we think is most important. We use that as a blueprint for 
managing our technology now.
    But the most important thing to measure when you measure 
performance with technology investments, it seems to us, is 
that you be able to have a system that is accountable. What is 
it you do and how do you use technology to create an 
accountable system, and by that, let me give you two examples: 
One, there is a building permit process that has the builders 
in northern Virginia being up in arms. They are required to 
submit a hard copy, very thick application to agencies. Fairfax 
County, the Secretary of Transportation and Secretary of 
Natural Resources, they never know who has it. They never know 
how long it is going to take. They hire lawyers to manage it.
    It is never about the technology, it is always about the 
management. We put the stakeholders in the room, myself and two 
of my colleagues, and we are designing a system in real time 
that when you send that application in, it will be registered. 
You will know who has it and how long it is. The same thing 
with driver's licenses. There is a 90-some-odd percent Virginia 
approval rating of people who have been to RD&V in terms of 
their experience. Why? Yes, you can renew it on-line, but that 
is not good enough today. It is our database, we have the data. 
We know who is qualified. We send you the PIN number and you 
just simply put in your driver number and your PIN number and 
you don't type in name and address, at some point it all pops 
up. If you wait until the last minute, when you get to the 
transaction page and press click, the police are automatically 
notified that your driver's license is renewed and that receipt 
is a driver's license.
    That is a system of accountability and allows for 
measurement. Both of those instances are taking real priorities 
that we established through Y2K. It was the first time we 
actually have agencies that told us that they didn't have any 
priorities. Deal with that in the budget process. But I think 
the tools are there to make the technology more accountable, 
and I think one opportunity that the Federal Government has is 
to build on the discipline system that I honestly think the 
Government Reform Committee put in place, because government 
has defined what it does agency by agency. It is a great 
blueprint to work against and judge your technology investment 
against.
    Mr. Horn. Another thing I tried 3 or 4 years ago with my 
Transportation and Infrastructure Committee membership, we had 
testimony from the California EPA that they had turned over to 
the people on behalf of whom you had to file those reports how 
you can computerize that, and it worked. Somewhat like you are 
saying. Let them figure out the codes and all of the rest of it 
that you have to go through, and the result is that they saved 
a lot of trees for one thing, and they didn't have these 
reports where you couldn't find it, and you couldn't find what 
part you wanted because they were sitting somewhere in a 
warehouse in the paper world. So I asked EPA, which was also 
testifying at the time, can you do that. Oh, yes, I think we 
could.
    Well, they haven't done a darn thing yet, and yet 
California has this thing moving. This was under Governor 
Wilson years ago.
    These are the kinds of things that innovative States do, 
and we are sort of behind the cities of America and some of the 
counties of America at the State level and the Federal 
Government is behind all of you. So we are trying to stimulate 
the interest there.
    Any thoughts, Ms. McGinnis?
    Ms. McGinnis. Yes, I think measurement is very important. 
In terms of e-government, we can measure the transactions 
completed. We know that a lot of people visit government sites, 
but very few transactions are actually completed at this point. 
Service is delivered. Satisfactory two-way communications. You 
can measure customer satisfaction, whether the customers are 
citizens or businesses or universities, in terms of the quality 
and the timeliness of the transaction. You can measure cost 
savings in the long run and I think return on investment. 
Particularly for investments in the short run, access can be 
measured.
    We know a lot about how many people who are on-line. There 
are a lot of projections about that in the future. Knowing that 
in terms of specific categories of people who access government 
services would be very helpful, and then the security and 
privacy measures are also important, and some audits, so that 
we understand how government is doing on those dimensions. So I 
think there are a lot of measures, and for e-government, those 
are measures of how e-government is doing, but for each agency 
the most important measures are their mission-oriented measures 
like the Department of Transportation and how it is doing on 
safety. And I think the e-government networks will contribute 
to that. But the most important measures are the results.
    Mr. Horn. Mr. Cooper, any thoughts on how you measure 
programs?
    Mr. Cooper. It is obviously very important to conduct 
measurements of Federal programs and the Federal service to the 
citizen. We believe that the most important measure is the 
value that the government provides to its customers or 
constituents. Value, we believe a customer constituent is 
looking for, is how effectively does the government operate as 
a business? Does it operate like a business that we are all 
used to interfacing with, and will we pay our money for that 
service?
    Along that line, important metrics are needed for maybe 
three areas: One, customers or citizen satisfaction, supplier 
satisfaction and employee satisfaction. We put all of those 
under the first category of satisfaction. And what is happening 
in the commercial industry is that customer relationship 
management systems and tools and procedures are being built and 
being implemented for managing the customer or the constituent, 
and there are a few initiatives within the Federal Government 
where CRM is being implemented. So looking for the measurement 
of customer satisfaction is extremely critical.
    The second one is what we call service level agreements, 
and that is where you look at technical performance of the 
system or solution. The Federal Government is, in many ways, on 
a performance-base contracting, which I know that you have 
supported in the past, and the government is doing a good job 
of implementing service level agreements, and I think we are 
well on our way to establishing what a service level agreement 
is for an infrastructure or a computer system.
    The third, of course, is the financial metrics. We still 
have to work on what are those financial metrics, and what will 
be the acceptable level of the financial metric, again, in 
customer satisfaction and technical performance.
    Two more real quick points, in order to achieve either of 
these metrics, it is going to require integrative business 
processes, and that is where we have the difficulty, the 
stovepipes, that Secretary Upson mentioned earlier. We need to 
standardize the processes and the tools, the methods which are 
going to drive the demand for the common infrastructure, the 
standard networking, the standard access, access to data, data 
warehousing, data mining, which, again, is going to drive the 
need for Web enabling some of the legacy systems. We can't 
throw away all of the legacy systems that we have today and 
replace them with new whiz bang systems that may or may not be 
tailored to meet the unique needs of the Federal Government.
    So it is going to be very critical to look at the business 
processes and determine which processes can be implemented 
through Web enabling at the existing legacy systems and which 
ones will have to be removed and replaced.
    Mr. Horn. Well, I am sure that Unisys has a lot of 
experience with the private sector, and you are sowing a lot of 
these systems. As I remember, when I was a little kid in the 
thirties, the Standard Oil Co. of California had a separate 
organizational group that reported essentially to the chairman 
of the board, and that was a group on organization which took a 
careful look constantly were we doing the right thing, what are 
we achieving and so forth, and helping other people.
    One of the things that I am going to be putting in in the 
next month is the Office of Management Proposal which is to 
separate out from under OMB. When Nixon did that, I thought he 
was right on track because he could use the budget to get their 
attention in some of the cabinet departments and agencies. It 
didn't work out that way.
    I remember they had very--when I was in the Eisenhower 
administration, they had very fine people in OMB who were 
professionals and not political hacks, and they were people who 
knew what they were doing, they had served Roosevelt and Truman 
and Eisenhower, at which point it went downhill because they 
started to politicize Democrats like Kennedy, Johnson, or 
Nixon, and they started putting their own people, and you lost 
a lot of that professional approach, how you draw up government 
organizations.
    These are people that had drawn up the TVA, the Tennessee 
Valley Authority, and they put together a lot of government 
operations. They wrote the Marshall Plan. It wasn't the State 
Department, it was this unit. And so the question is where are 
these people? They aren't around too much now. This is what we 
have to build if the President is going to have choice and 
options. Sure, he needs somebody that can worry about the 
budget, but they are different skills when you are worrying 
about the management style. I am trying to split them off.
    Mr. Cooper. One comment, please, you mentioned Unisys's 
experience, and I would just like to remind you of the history, 
and we can provide more for the record, if you would like. 
Unisys came from Sperry and Burroughs in the 1980's, and when 
Burroughs and Sperry were formed, there were 51 data centers 
around the world. Today, there is one data center in Egan, MN 
serving 36,000 employees. Over 22,000 of those employees have 
access to Unisys broadcast television, so it is a push of the 
information and technology out to those employees in over 100 
countries. Nearly all of the 36,000 have access to the same 
standard e-mail system. We all have one EHR system.
    Every employee has access to his personnel records all over 
the world. One system is achievable, it is a little more 
difficult when we have the situations that we have over many 
years of management, as you've indicated, missions and 
responsibilities that has been placed in the various agencies. 
We need to get started trying to work them together and across 
agency service to the citizen initiative would be very 
important.
    Mr. Horn. Ms. DeLaski.
    Ms. DeLaski. Two quick points. One, some agencies seem to 
judge their success by the number of hits to their Web sites. 
It is how many tax returns are filed on-line, not how many hits 
came to your Web sites. So that is one point.
    The other is just a cursory service which we are offering 
in government guide which might be of interest to your 
committee, your subcommittee, is that we are offering the 
opportunity for visitors to each of these government sites to 
rate the government site when they go there because we have put 
a button at the top of each government site which says, rate 
this government site, and up pops the screen that says was the 
information helpful? Was this worth my tax dollars? And we have 
ratings for 2,200 Federal sites now which we would be happy to 
share, and we share with agencies as well.
    Mr. Horn. Yes, that sounds very interesting. Does it really 
change at the other end when they read that material? Is 
anybody doing something about it?
    Ms. DeLaski. The agencies have asked us for the 
information. I imagine it is being used more for the purposes 
of flag waving when they get a good rating than the other way 
around.
    Mr. Horn. Well, we heard the building offices and the local 
governmental jurisdiction. That is one of the key things if you 
are trying to get economic development in an area where you can 
get access, because time is money and it is taking all of the 
time, and we had this in California and I can't say that we 
really have done much about it. I think what you are doing in 
Virginia makes a lot of sense and to be a model to tie in these 
things so that people who want decisions made can get them 
made. I don't know how you found that working in other parts of 
Virginia or in other parts of the United States.
    Mr. Upson. The key too, Mr. Chairman, is I think it is 
working in Virginia because we are bringing the stakeholders to 
the game, and I think it is about the structure. On the other 
hand, I would like to--and it is about the whole supply chain 
that I think Y2K showed us. It is not just about what you do at 
the Federal level, but State and local government. I would like 
to put out one other example where the government can do 
something. Part of Governor Gilmore's executive order is going 
to call for the uniform project management system of all 
projects over X value. We have a management structure so we are 
in a position to do that, but the Federal Government is 
spending $36 billion a year, and the statistics, I don't know 
what they are now, but 2 years ago, 16 percent of all IT 
systems projects were successful on time within budget. 84 
percent weren't.
    I think the reason they weren't is that there is no 
accountability. People change requirements. We are putting in 
place not only a uniform project management system but a 
reporting requirement monthly. Every project in that category, 
everyone enters data the same way, and it comes to me and our 
council on technology services. Every 3 months it goes to the 
Governor and key members of the funding committees of the 
legislature. I believe that even the minute parties, both the 
public and private sector, managers know that there is 
accountability in the system, and the costs will go down. Every 
1 percent savings is $360 million. We are trying to build 
incentives.
    I think those are things that can be done as well. But it 
does get back to one of the focuses of your hearing, and that 
is the structure, and for me, everything revolves around that.
    Mr. Horn. I thought your suggestion was very interesting 
and ought to be acted on is to get the States' representatives 
of counties and cities in that CIO council, because this is a 
partnership deal, and part of our problems in Y2K, even Social 
Security said oh, my heavens, we have our partnerships with the 
States and we haven't looked at them. They have done a great 
job on their situation and they scurried around and brought the 
States in. But that is the kind of thing that we need, where 
these partnerships are, we need to be working together with the 
States, and I happen to be a big fan of revenue sharing, and I 
hope that we get back to that one of these days. You know what 
we should be doing with the money, and, of course, the other 
party and the lobbyists just hate it because they can lose all 
of their power and all of their money. So it lasted at least 
for 10 years, and regretfully, in the Reagan administration 
they stopped it, and that was a mistake.
    Mr. Molaski. Mr. Chairman, I would be remiss in not 
commenting on working with States that the CIO council is very 
much in favor of that, and in fact, has developed a 
relationship with organization of all of the State CIOs and had 
a joint meeting with them this past June, this past December, 
when we had our first government conference. We think that is 
one of the things once we get our act together.
    Mr. Horn. On that very point in getting your act together, 
do you find some of your colleagues who have CIOs, do they have 
access to the Deputy Secretary or Secretary? Where are they? We 
are going to be looking at that. I am just curious.
    Mr. Molaski. They are all over the place. Some are 
political appointments with confirmations. Most of them are 
career SESs at the present time. It is not so much the access 
to the Secretary that really impinges--whether the CIO can 
perform the functions. It is really do they have the authority 
to impact the budgetary dollars, and even more so, I think it 
has been proven again and again, take control of the 
infrastructure which is broken out between many departments as 
Secretary Upson was saying here, and bring it together into one 
single type of activity. I think that has been proven at NASA 
where they went from spending $400 million a year to $100 
million a year on their telecommunications costs, and most 
recently the Treasury, where they are looking at saving $400 
million a year.
    Mr. Horn. To what do you attribute that? The location of 
the individual that could make these decisions?
    Mr. Molaski. Right. And in NASA, it was somewhat the lack 
of complexity and the drive of the organization to get a common 
infrastructure. And I think we will see more and more agencies 
doing that.
    Mr. Horn. That has been brought up with the CIO council so 
they can spread the word?
    Mr. Molaski. Absolutely. Again, the CIOs in my opinion want 
to do a good job and are engaged in doing a good job, but 
really don't have the authority or the funding to be able to 
really implement those changes in Web time that we are talking 
about. We have to bring a lot of consensus together and spend a 
lot of time building coalitions that in industry is handled 
more efficiently.
    Mr. Horn. Any other suggestions on measurement or 
hierarchy? I don't see any, so I will finish up with a few 
questions here.
    The benefits of the electronic government are numerous, and 
there are risks, and, of course, we talked about the love bug 
and the virus struck an estimated 45 million computers in 20 
countries causing $8 billion in damages is the current 
estimate, and as we move toward greater reliance on the 
Internet to conduct business and provide services, how can we 
ensure the seamless operations in light of such devastating 
attacks?
    You had a good assistant who shut down the servers. Go 
ahead.
    Mr. Upson. That is true. Again it goes back to we are 
dependent, and the Internet and Web-enabled anything is going 
to do nothing but keep coming at us, and the question is how do 
we manage both risk and security. Having in place a system that 
can get the information shut down and the servers put the 
corrections in, and communicate with the agencies and the 
enterprise, and that really is the challenge. I don't think 
that we will turn back the clock, and what we did in Y2K pales 
on what we are going to do in data security and infrastructure 
security.
    Mr. Horn. One of the things that we want to look at, and we 
would like your advice, obviously, all of you, and that is, the 
degree to which we should look at a system in agency or 
department where they have certain types of things you go 
through to try to prevent that happening, and to try to block 
it off or divert it or whatever you want to say. Do we have 
some good examples of that in the private sector or in some 
level of government, because as the Secretary says, we have a 
real problem on our hands. They are going to be bombarding us 
all of the time. It is not just the 17-year-olds, it is foreign 
governments that want to look at things which lead to economic 
wealth or deficits.
    Ms. DeLaski. We would be happy to link you up with those 
folks who are experts and have that conversation. I am not an 
expert on that.
    What we want to stress is whenever there is a problem, we 
can put up in red letters on America Online which reaches 40 
million people, we can put up something that says alert, do 
this or don't do this, so we can work with the government 
agencies, but we often have trouble knowing who is the lead in 
what message needs to go out to consumers. So to the extent 
that we can identify who those folks are, we would be very 
happy to act as a public service address system for those kinds 
of things.
    Mr. Horn. Fascinating. When GAO goes around and looks at 
these models, and what is the high risk and what is the low 
risk, and you do a great job on that. We have asked the 
Controller General to put a team ongoing through all Federal 
employers, all Federal computer people in terms of both the 
software and the hardware. And to what degree does Congress and 
the OMB face up to new equipment, which should make Mr. Cooper 
happy. In other words, we are a few generations behind if we 
are still playing with COBOL in the Department of Defense.
    Mr. Cooper. We have not been successful in bringing in a 
commercial solution. So the customer and the field believes he 
is getting access to a very modern system, but it is the old 
COBOL code behind the Web-enabled application.
    Mr. Horn. That is fascinating.
    Mr. Cooper. It is part of a solution.
    Mr. Horn. Maybe we better learn COBOL again.
    Mr. Molaski. It is not an official administration position, 
but I think one of the things that we are going to have to take 
a very hard look at in government is that as the United States 
becomes more and more dependent on electronic commerce, I 
think, likewise, our expenditures at the Federal Government 
level need to start being far more reaching as far as the 
security effort goes. Right now it is somewhat of a 
decentralized effort with GSA playing part of the role. 
Something happens at the DOD or CIA or NSA. Somehow we have got 
to be able to bring those activities together so that we can 
get ahead of the curve, if that is possible at all. Because it 
is going to have such a devastating economic impact, actually, 
if something like this would occur that would be attacking our 
national security.
    Mr. Horn. That is a good point. Mr. Cooper, to what degree 
is Unisys and other firms, IBM, and all of the rest, looking at 
this, how we can create blockages and not have the viruses get 
through the network right now?
    Mr. Cooper. At Unisys Corp., we have set up a management 
structure at the corporate level and policies procedures, 
looking for tools, methods. And then we have acted upon those 
at the local level, such as, in this case, the U.S. Federal 
Government. We have chosen the best tools that are available 
today.
    Norton Utilities is a good example. There are some modern 
virus, antivirus software that we are using, but I would like 
to bring in the fact that being a global corporation, we have 
to look at what is going on around the world and what we find 
in many parts of the world. Even in South America, they are 
ahead of us in various aspects of information security.
    Part of the reason is that they don't have the Privacy Act 
requirements that we have here in the United States, and 
recently, in working on a procurement for the General Services 
Administration called GSA Smartcard, when we went looking for 
capabilities around the company to respond to that program, we 
found most of the experience coming out of Venezuela, Portugal, 
Canada, Brazil, places that you wouldn't anticipate. There is a 
lot going on in the world. We need to continue to work it at 
the corporate level, both from a management structure and the 
technology investments, and with commercial off-the-shelf tools 
to build a corporate-wide strategy that gets implemented at the 
local level.
    Mr. Horn. That's interesting. We need to look south of the 
border.
    Mr. Cooper. And north.
    Mr. Horn. Are there statutory impediments that you are 
aware of to make effective, more effective the e-government 
initiatives? What are the statutory gaps that need to be filled 
in terms of the Federal Government? And are there other 
statutes that are giving you a pain that you would like to 
change? Presumably, Clinger-Cohen was designed to help people, 
not the opposite. I don't know what the experience has been. We 
ask, but sometimes we don't hear an answer.
    Mr. McClure. Mr. Chairman, I think there is actually a 
great body of law already in place driving e-government. I 
think we have an analysis of these statutes that showed that a 
lot of what is going on in electronic transactions and on-line 
services is driven both by authorizing legislation that 
pertains to individual departments and agencies. We find 
provisions bearing in law that require agencies to do X, Y, and 
Z by a certain date. We have general management improvements 
status such as Clinger-Cohen and the CFO Act, which require 
agencies to move aggressively toward greater use of information 
technology, and particularly through the Government Paperwork 
and Elimination Act on-line transactions.
    I think there is a very robust framework in place right now 
that is moving government in this direction. There is also lots 
of Presidential directives of trying to accelerate the 
attention and pace of government agencies to the issues. Again, 
I think there is a very, very robust framework. As far as 
overlapping and duplication, I don't know if our analysis 
really dug down that far, but I don't think that you can say 
that there is a lack of attention for this from certainly both 
the executive and the legislative branch.
    Mr. Horn. Has the GAO, in their studies of this, how much 
government do we really want to put on-line, and what is the 
ultimate goal? Is there any thinking in GAO when you go around 
and talk to the people in the executive branch?
    Mr. McClure. There are certainly questions that we want to 
ask agencies, not necessarily questioning about what they put 
on-line, but how they have gone about making decisions on what 
are the requirements that they want to put on-line. One of the 
challenges that we see at government agencies is oftentimes 
they try to do too much without enough capability or skill or 
attention to get results in a few areas.
    So some of the problems are simply taking priorities, 
moving aggressively in certain areas, getting a good track 
record, and showing success and moving on, and I think that is 
a real challenge for many of the agencies, particularly when 
you look at the scope of what they are being asked to do by 
some of the deadlines that are now being imposed.
    Mr. Horn. Mr. Molaski.
    Mr. Molaski. I think a couple of things, Mr. Chairman. No. 
1 is that if we are going to allow and use the CIO positions 
within government to be the change agent within government, we 
have to place the accountability authority and responsibility 
in that position as we have been talking about.
    I think probably the most critical function for that that 
we really need to look at is manpower functions. We are not 
getting the young blood. The average age of DOT employees in 
the civil work force is 43.7. Over 50 percent of the technology 
workers in IRS are over 50. We are not getting challenged from 
the bottom. We are not connecting with a whole generation, and 
we need to bring this new generation into government and make 
government relevant in their lives and get their perspective on 
the way that the government has to move. And again, I would 
highly recommend that we go into government service in return 
for paying for their education or forgiving student loans-type 
of scenario, which would bring and cause this to happen.
    The last thing is that we have a tremendous opportunity 
that is going to be facing us here as we start rolling out e-
government and moving forward. Currently, we are stovepiped 
within the executive branch. Congress is also stovepiped and 
there is no overarching committee that is looking at e-
government and across government. We need to put some processes 
in place so when these opportunities for streamlining and for 
consolidation present themselves, that we have a workable 
process in place to be able to attack them and give the 
stakeholders and the citizens what they deserve.
    Mr. Horn. You have eloquently stated the problem, and we 
will steal all of your words, but we will attribute them to 
you, but we don't pay any royalties. You are right on the mark 
on that, and that is one of the euphorias, as a Californian, I 
have been trying to upset the community college people and 
Silicon Valley, where I had a hearing a few weeks ago and say 
look, why can't you people get together. We have to bring all 
of these people from abroad.
    These are $60,000 jobs, and the community colleges were 
designed in California starting back in 1910, 1917, and the 
whole purpose which you can never achieve in a State agency is 
you just don't have the money, so you are going to train and 
educate people. You need to have the people that make the 
equipment, hardware, software, whatever, and working with the 
teaching profession so you have a decent curriculum that makes 
sense to people.
    And the military are usually very good at teaching, and 
that is where we try to work. The community colleges need to be 
working together, and it needs to be continuous. Chico had 
audio and television going all over that area in the seventies 
and eighties, and we had a statewide nursing education program. 
I am trying to think now whether it was the Johnson 
Foundation--one of them gave us $2 million to get this rolling. 
Nobody ever had a chance to get an education before, and that 
is the kind of thing that we need to have, the industry working 
with community colleges and people in the agencies, and I would 
think that we have got to start in kindergarten.
    So we have just got to get together and do it, and if we 
have every one of us at this table be a--the private sector 
that sells, computing, teachers, and consumers, we have to do 
that and focus on and keep at it. You have put yourself on the 
mark on that one. The problem is how do we get it done?
    Ms. McGinnis. The e-government initiative that we have 
underway involving a lot of the companies represented here and 
others in government is looking specifically at the barriers to 
e-government and computer statutory barriers, so we will give 
you the very specific analysis of that when we have it. I think 
they will fall in the categories of personnel issues. That is a 
big one in terms of recruiting, training, development, 
developing; and we are hopeful that you might take a look at 
information technology as a special case, think about the 
changes that are necessary in computing practices, pay, and all 
sorts of things, and then learn from that to look at the civil 
service system as a whole.
    The other barriers I think will come in the way money 
flows, and that gets to the point that George Molaski made 
about the way the executive branch is stovepiped, and Congress, 
in terms of the appropriations committees and how the money 
flows. It flows in such a way that it doesn't allow the 
integration, integrated investments and funding for technology, 
and we may want to look at something like a working capital 
fund, we may want to look at some possibilities, such as 
sharing savings, to provide some incentives for savings down 
the road.
    So there will be very specific, both barriers and 
recommendations, that will be offered by fall, and hopefully 
that will fit within your timeframe.
    Mr. Horn. We certainly welcome it. I can tell you one 
thing, and I have seen it work any number of places, it took me 
5 years to get our trustees in the California State University 
system to collapse all of the civil service positions that were 
anywhere near management, if we are going to actually get 
something done, get rid of them. And we got down to four basic 
things. It went from 10,000 to 100,000. The President could set 
the amount anywhere on that scale and we wouldn't have 
personnel directors which drove me nuts for 30 years. They were 
not created in the Federal Government when I was Assistant to 
the Secretary of Labor. He said Steve, you go across the hall 
and talk to them. This was a guy who was Secretary and the top 
personnel person in the country, he couldn't stand Federal 
personnel directors. It was always like that. It is like 
Groucho Marx, what is the magic word? If you don't get it, you 
don't get the raise. Nonsense.
    So what you do is put a contract on that manager. What are 
you going to do in 6 months, where are your goals? If something 
happens, great. If it doesn't happen, you put the squeeze on 
them and you move the money around. Overnight things started to 
happen. People said gee, they really care about how we do 
things, and that will work again, but you have to fight 
personnel people.
    So I don't know what degree we have made any progress in 
the Federal Government. That is not my bailiwick, so I stay out 
of it right now. That is the problem. We do need to reward the 
purchasing people that are being stolen off. That I do want to 
see happen. Also, we need to get rid of a lot of political 
appointees and have professionals. I tried that one in 1975. 
Some people said we might be in some time. That is crazy. You 
want good professionals who make a lifetime of it.
    Mr. Cooper. I would like to add one comment to the 
discussion on the community college and the hiring of personnel 
with 2-year associate degrees, or even nondegree.
    The private sector that is doing business with the Federal 
Government believes very strongly that Congressman Davis' bill 
that requires the Federal Government to enter into contracting 
practices to require opportunities in those labor categories 
without--for performance without degrees to be passed. That is 
an important piece of legislation for us.
    Mr. Horn. We carried that through the House the other day. 
Bill Gates couldn't have qualified.
    Mr. Cooper. It is extremely important because there is a 
large group of personnel coming out of the community colleges, 
and more importantly maybe is the people who are leaving the 
military service that have 4, 8, all of the way up to 20 years 
experience and no degree, and we can't place them on a Federal 
contract. That is nonsense.
    Mr. Horn. Absolutely. So right there are a few statutory 
things that we need to work out and not wait until election 
night. Let's get this show on the road.
    Any other thoughts on this? Do you have any last questions, 
counsel?
    He thinks that we have not gone far enough. Secretary Upson 
mentioned the digital opportunities program being developed by 
Virginia as a way to ensure access to the electronic government 
for all citizens. What initiatives are underway at the Federal 
level to ensure electronic government for all citizens without 
regard to education, geographically or disability? Anything 
beyond the statutory initiatives that have been managed 
earlier? It is a real problem. Income, little kids have laptops 
at 4, not every family can afford that. So are we going to have 
a digital operation where you have people that are really 
impoverished, and they might be able to make the transition to 
buy a small laptop. The question is, what do they know about 
it?
    That is one of the things that we have to do. Money talks. 
When you say $60,000 down the line, I think you might get a lot 
more people there than we have in the past. That is what is 
needed.
    Mr. Upson. Mr. Chairman, one of the points on this goals to 
personnel issues, maybe just an observation, it is going to be 
very difficult for the government to hire qualified people as 
long as the technology people are over here and policy people 
are over here which, in many ways, is the issue today. As long 
as that is the case, medicine will be a different speech than 
health care.
    I think one of the things, the power at the Federal level, 
is we use State government not to build a network, but to bring 
together our technology experts and our business leaders, and 
we use the power in the Federal Government, both its buying 
power and expertise in technology, to bring together the 
communications companies, for example. I know President Clinton 
was in North Carolina talking about in 3 years he has an 
agreement to provide high bandwidth communications in rural 
parts of North Carolina.
    We did that last December, and were rolling out the 
omniband, high bandwidth communications network for any 
business in Virginia based on using the power of government to 
bring the companies together, and all of the enterprises are 
paying the same price so people in northern Virginia are paying 
the same as people in counties which are in far southwestern 
Virginia.
    It is without those building blocks, without those building 
blocks, rural America and nobody else is going to participate. 
We are going to have a divide where we have opportunity. It 
goes back to that point about networks. Canals, networks and 
superhighways all have prosperity. This network can be 
everywhere and government--I think some of the technology 
people in government with executive leadership and coordination 
are in the best position to bring about an infrastructure that 
will give all of our citizens opportunity, I think, for 
generations. That is a different model.
    Mr. Horn. Well, I sure empathize with you about rural. I 
happened to grow up on a ranch, and in college we all found out 
that a lot of us had grown up on farms. We knew how hard it was 
to work on a farm, and going to college would get us off that 
place.
    Mr. Cooper. Mr. Chairman.
    Mr. Horn. Mr. Cooper.
    Mr. Cooper. I cannot pass up the opportunity to say 
something about the part of the country that I come from and 
the difficulty that we have in this area. Just across the State 
line in Tennessee, the hills of Tennessee and it is atrocious 
the situation that we are in. We also, here in the Washington 
area, we often make jokes about the Federal Government moving 
to West Virginia. There are government contracts, there are 
opportunities for moving some of the performance of the Federal 
business to these parts of the country. Being the oldest of 12, 
the rest of them are still in the hills, they need the 
training. It is not just the people of our age, it is the 
teachers in the public schools who do not--who are not computer 
literate. They don't have the schools wired and they don't know 
how to train the kids.
    If you look at the industry, whether it be Saturn moving to 
Tennessee, there are many industries who are moving industry to 
those parts of the country and are doing a good job. The 
Federal Government has not done its share.
    Mr. Horn. You know, in the Eisenhower administration when I 
asked the personnel director where we were getting our supply 
of clerical people, they were full-time living in West 
Virginia. That got people out of the classrooms to get them up 
here to get an education. That was helping West Virginia before 
Senator Byrd.
    You are right about some places do get favored more than 
others.
    Mr. McClure. We do have a request in from Congress to look 
at that very issue--what are the factors that are influencing 
relocation of data centers and virtual service providers, 
customer centers in other parts of the country. In today's 
environment, they don't necessarily have to be located in the 
urban centers. So we have a dialog with some of the members of 
our executive council who come from the private sector to look 
at what some of those factors are that could be influencing the 
relocation of some of the power of the Internet via some of the 
call centers and the customer relation centers that you see in 
the private sector. We would be happy to share that with you 
when we get it done.
    Mr. Horn. I would be glad to see it. When President 
Eisenhower was in office, he wanted to decentralize the 
government in case of bombs, and this was during the cold war, 
or anything else that were dropped in Washington, he wanted the 
government moved out of range, at least piece by piece. He 
wanted it 50 miles, 100 miles, so some things did get moved, 
which was good.
    Mr. Molaski. Back to the digital divide, Mr. Chairman, I 
think that some of the transportation companies are showing us, 
such as Ford Motor Co., has given all of its employees access 
to the Internet and a computer. American Airlines has also. The 
chairman said his payback and his cost to the organization was 
less than a year.
    I think it is very difficult for us in government to keep 
on talking about e-government when some of our employees in 
government don't have access to the Internet. If we want them 
to think about it in their jobs, how they can use the Internet 
to be able to perform better services, they need to be on it 
and playing with it.
    Likewise, we need to encourage industries to continue the 
model that these fine organizations have started.
    Mr. Horn. You are absolutely right on that. This 
rejuvenates a number of areas, and we have to keep going on 
that. We have had a lot of things, in fact, sometimes the grade 
is wrong. We had a lot of problems with the--I think it was 
Columbus, OH Army processing center on contracts. They had GS-
1s there. I thought that they went out with the Civil War. That 
is why they were spewing out contracts for people who didn't 
have any orders. That was rather amusing.
    But they needed to up the level, and that is what we had to 
do. The military is terrific in that. If you want to get a 
Ph.D., join the Army. They will send you to Harvard or 
Princeton or Long Beach. We need that constant upgrading and 
giving people a chance.
    I happen to have a small subsidiary of a German firm in my 
district, and 8 years ago when I was campaigning for the first 
time, I went through there, and if a person logged 1,000 hours 
on the computer, the firm would give it to him. He could take 
it home or whatever. They taught them computing and those 
people have a career now. But it took good management to have 
the idea and get people involved and excited about it.
    Any other last questions or thoughts you have?
    If not, I thank each of you for coming. We deeply 
appreciate the work of everyone who worked to put this hearing 
together. We have the staff, and I thank J. Russell George, 
staff director and chief counsel; Randy Kaplan, counsel; Bonnie 
Heald, director of communications; and Bryan Sisk, clerk; Liz 
Seong and Michael Soon, interns; and minority staff, Trey 
Henderson, counsel; and Jean Gosa, minority clerk; and the 
staff from Representative Davis' office, Melissa Wojciak and 
Barbara Tempel, and the court reporter is Doreen Dotzler.
    [Whereupon, at 3:10 p.m., the subcommittee was adjourned.]


</pre></body></html>
